       EVALUATION REPORT




  Interior Lacks a Scientific Integrity Policy

Report No. WR-EV-MOA-0014-2009         April 2010
                   United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                     Washington, DC 20240




                                                                                 APR 2 8 2010

Memorandum

To:

From :


Subject:        Evaluation Report Titled "Interior Lacks a Scientific Integrity Policy"
                (Report No. WR-EV-MOA-0014-2009)

        This memorandum transmits our report detailing the results of our evaluation of the
Department of the Interior' s (Interior) scientific integrity policies. Specifically, our objective was
to determine whether codes of conduct for scientific research and publication exist and in what
form. We reviewed all scientific integrity policy documents within Interior issued in the years
2000 through 2009.

        We found that Interior has no comprehensive scientific integrity policy and only one of
its bureaus has such a policy. In addition, we found that Interior has no requirement to track
scientific misconduct allegations. Without policies to ensure the integrity of its scientific
research, Interior runs the risk that flawed information will reach the scientific community and
general public, thereby breaching the public ' s trust and damaging Interior' s reputation. The time
for a comprehensive scientific integrity policy at Interior is, therefore, long overdue.

       The report contains two recommendations, which, if implemented, will serve to assure
accuracy and accountability in Interior' s science and protect against misconduct.

       Should you have any questions about this report, please do not hesitate to contact me at
(202) 208-5745.
Contents

            Synopsis .......................................................................................................1
            Introduction ..................................................................................................2
                    Background ....................................................................................2
            Findings........................................................................................................4
                   No Comprehensive Scientific Integrity Policy ................................4
                              Failed Draft Policy ...............................................................4
                              Responsibility Delegated to Bureaus ...................................6
                   No Requirement to Track Misconduct Allegations .........................6
                   Promising Practices..........................................................................7
            Conclusions ..................................................................................................8
                   Recommendations ............................................................................8
             Appendix 1: Objective, Scope, and Methodology .....................................9
             Appendix 2: Governmentwide Scientific Integrity Requirements ...........10
             Appendix 3: Scientific Research Misconduct Policy Comparison ..........11
             Appendix 4: A Model Based on USGS and HHS Policies ......................12

 Acronyms   U.S. Department of the Interior .........................................................Interior
            Research and Development Council ................................................. Council
            Office of Management and Budget ...................................................... OMB
            U.S. Fish and Wildlife Service ............................................................. FWS
            U.S. Geological Survey....................................................................... USGS
            National Park Service ............................................................................ NPS
            Office of Inspector General ................................................................... OIG
            White House’s Office of Science and Technology Policy .................. OSTP
            U.S. Department of Health and Human Services ..................................HHS
Synopsis   The Department of the Interior (Interior) has never had, and
           currently operates without, a scientific integrity policy. Further, it
           has no requirement to track allegations of scientific misconduct,
           and its discipline and adverse action policy is deficient to the point
           that scientific misconduct deeds could go unpunished. Without
           sound policies to protect the scientific community and general
           public from potentially flawed scientific research, data, and
           publications, Interior’s reputation and its public trust are at risk.

           Interior’s mission is, in part, to protect and manage the Nation’s
           natural and cultural resources. This responsibility includes
           producing accurate and reliable information about those resources.
           Scientific research and development programs are essential for
           carrying out this mission. To this end, Congress appropriates
           billions of dollars for Interior’s scientific endeavors. In fiscal years
           2008 and 2009, Congress set aside more than $1.4 billion for
           Interior scientific research projects. Given the emphasis on
           Interior’s science programs, a comprehensive policy should be in
           place to ensure sound scientific practices. To date, Interior has
           never had a comprehensive scientific integrity policy.

           In this report, we make two recommendations, which, when
           implemented, will serve to assure accuracy and accountability in
           Interior’s science and protect against misconduct.




                                                                                  1 
 
Introduction     The mission of the Department of the Interior (Interior) is, in part,
                 to protect and manage the Nation’s natural resources and cultural
                 heritage and to develop and use scientific information about those
                 resources. To this end, Interior funds a variety of scientific
                 research studies. Without sound policies to protect the scientific
                 community and general public from potentially flawed scientific
                 research, data, and publications, Interior’s reputation and its public
                 trust are at risk.
    Background   Congress appropriates billions of dollars for federal scientific
                 research and development. In fiscal years 2008 and 2009 alone
                 Congress appropriated to Interior more than $1.4 billion for
                 scientific research projects. The Research and Development
                 Council (Council) uses investment criteria created by the Office of
                 Management and Budget (OMB) to evaluate program relevance,
                 quality, and
                 performance.

                 Science projects are
                 conducted both
                 internally by
                 employees and
                 externally by
                 contractors. Interior
                 science projects            Figure 1. Atlantic Salmon Smolt. These
                 include, but are not        salmon are one of the species Fish and
                 limited to, oil spills,     Wildlife Service has targeted for
                                             recovery.
                 geologic hazards, acid
                 mine drainage, Everglades restoration, geologic studies,
                 desalination, climate change and biological research.

                 For many years Interior has advocated the importance of scientific
                 integrity. In its current strategic plan, Interior has touted that
                 “Integrity must remain the foundation of all Department of the
                 Interior science: impartiality, honesty in all aspects of scientific
                 enterprise, and a commitment to making that information available
                 to the public as a whole.” The Secretary stated that one of his
                 priorities “will be to lead the Interior Department with openness in
                 decision-making, high ethical standards, and respect for scientific
                 integrity.”




                                                                                      2 
 
    Scientific integrity is necessary for Interior to ensure the science it
    uses fulfills its mission.
    Interior has already found
    itself in situations which
    illustrate the need for an
    Interior-wide scientific
    integrity policy. One
    example is a case that
    garnered media and
    congressional scrutiny
    when the then Deputy
    Assistant Secretary for
    Fish, Wildlife and Parks
    was found to have unduly
    influenced a critical                                                
    habitat designation. The             Figure 2. Pine Rocklands, some   of
    fallout resulted in having           which  are located in Everglades
                                         National Park, restoration has
    to republish the corrected           been the objective of some Fish
    designation, but even more           and Wildlife Programs. 
    damaging was the effect
    on the public’s trust in Interior. In another example, a National
    Park Service (NPS) senior science advisor for Point Reyes
    National Seashore misrepresented research regarding
    sedimentation, failed to provide information sought after from a
    Freedom of Information Act request, and misinformed individuals
    in a public forum regarding sea life data, which put into question
                                                          NPS’ scientific
                                                          integrity.

                                                      In yet another
                                                      example, the
                                                      Office of Inspector
                                                      General (OIG)
                                                      conducted an
                                                      investigation of
                                                      scientific
                                                      misconduct by
        Figure 3. The Canada Lynx was listed as
        threatened under the Endangered Species Act
                                                      Fish and Wildlife
        in 2000.                                      Service (FWS)
                                                      biologists who
    submitted unauthorized samples that could have tainted the results
    of a Canada Lynx Survey.




                                                                           3 
 
Findings           Interior has never had a comprehensive scientific integrity policy,
                   or any requirement to track scientific misconduct allegations. A
                   decade ago, the White House’s Office of Science and Technology
                   Policy (OSTP) required all executive office agencies to implement
                   scientific integrity policies that would address scientific
                   misconduct.1Further, in a 2002 investigative report, OIG
                   recommended that Interior develop a code of scientific ethics.
                   Despite this, Interior has failed to implement a comprehensive
                   scientific integrity policy. The lack of a comprehensive policy
                   leaves not only Interior, but those who rely upon its scientific
                   information, vulnerable to tainted data and misinformed decisions
                   and, as a consequence, could have a negative effect on public trust.

No                 Failed Draft Policy
Comprehensive      Interior has no comprehensive scientific integrity policy. In 2007,
Scientific         the Secretary convened the Research and Development Council
Integrity Policy   made up of representatives from each bureau, which replaced
                   Interior’s Science Board. The purpose of the Council was to assist
                   in the planning, coordinating, and assessing of agency strategic
                   science priorities, and to provide a forum for discussion of research
                   and development activities to enhance scientific innovation and the
                   effective use of science for decisions made by Interior officials.
                   This Council drafted a policy for the Departmental Manual titled,
                   “Integrity of Scientific Activities and Code of Scientific Conduct.”
                   Unfortunately, this policy was never finalized. According to
                   Interior officials, a decision was made to delay the adoption of the
                   policy. This was due to several reasons, such as the bureaus’
                   inability to reach consensus and the impending administration
                   change.

                   Regardless of the reasons for failure, Interior has not implemented
                   a comprehensive scientific integrity policy, despite having been
                   aware of the requirements to have such a policy for more than a
                   decade. (See Figure 4.)




                   1
                    See appendix 2 for detailed information about federal policies regarding the
                   establishment of scientific integrity requirements



                                                                                                   4 
 
    Figure 4. Timeline of the Department’s Scientific Integrity from 2000 through 2010




                                                                                         5 
 
                 Responsibility Delegated to the Bureaus

                 In 2007, Interior issued a memorandum that required Bureau
                 directors to determine whether individual bureaus needed to
                 implement new guidance beyond what was required by OMB. The
                 memo, however, failed to refer to the 2000 OSTP policy on
                 scientific research misconduct, which required new policy.

                 An October 2008 memo from the Acting Assistant Secretary for
                 Water and Science to the Secretary stated that 3 bureaus (U.S.
                 Geological Survey (USGS), FWS, and Office of Surface Mining)
                 have “fully implemented scientific integrity guidance documents.”
                 USGS, however, was the only bureau to have implemented a
                 comprehensive scientific integrity policy. Other bureaus developed
                 a scientific code of conduct, but the policies did not address the
                 research misconduct requirements outlined by OSTP. Further, the
                 bureau policies fail to address many scientific integrity issues. (See
                 Appendix 3.)

No Requirement   With the exception of the USGS policy, Interior has no policy in
                 place to consistently address scientific misconduct allegations. At
to Track         National Park Service (NPS) allegations are handled at the field
Misconduct       office level and are never escalated to the attention of higher level
Allegations      management. One of the elements incorporated into the USGS
                 scientific integrity policy is a reporting requirement, which
                 provides that all service-wide research misconduct allegations be
                 reported annually.




                                                                                         6 
 
    Promising   Many executive office agencies and other respected science
                institutions, including Stanford University, Purdue University,
    Practices   National Science Foundation, Department of Transportation,
                                                                  Department of Energy,
                      Whitehouse Cabinet Level                    and Department of
                     Departments with Scientific                  Health and Human
                                                                  Services (HHS), have
                             Integrity Policies
                                                                  implemented
                                                                  comprehensive
                   Departments
                                                                  scientific integrity
                   Agriculture                                    policies covering all
                   Education                                      employees and
                   Energy                                         contractors to protect
                   Health and Human Service                       agency-produced
                   Homeland Security                              science. We found that
                   Labor                                          more than half of the
                   Transportation                                 President’s 15 cabinet
                   Veteran Affairs                                offices have scientific
                                                                  integrity policies in
                   Figure 6. This table lists the cabinet offices place. (See Figure 6.)
                  that have scientific integrity policies.



                At Interior, USGS scientific integrity policy is the only one that
                meets OSTP requirements. USGS accomplished this, in part, by
                setting forth rights and responsibilities of individuals involved in
                scientific research along with providing detailed processes on how
                to conduct inquiries and investigations into allegations of scientific
                misconduct and the requirements for reporting them. Furthermore,
                the policy provides timelines to ensure a speedy process. This
                policy, however, could be improved by adopting other Federal
                agencies’ processes. For example, HHS has procedures for
                handling allegations of research misconduct as well as practices to
                deter it. If an incident of research misconduct is found to have
                occurred, a summary of the case is posted on the HHS website for
                public viewing. In addition, HHS proactively attempts to prevent
                research misconduct by providing training and programs, for both
                internal and external research, to teach responsible research
                protocol and promote research integrity. HHS also provides
                newsletters and annual reports on research misconduct. All of these
                things help provide the public with an assurance that research done
                within HHS is of the highest level of integrity. (See Appendix 4.)




                                                                                            7 
 
Conclusions       Because science is an essential component in Interior’s decision-
                  making and mission accomplishment, Interior has the
                  responsibility to ensure its scientific integrity. To date, Interior has
                  no comprehensive policy that serves to assure accuracy and
                  accountability in its science and protect against misconduct. Past
                  examples of lapses in scientific integrity illustrate the need for
                  appropriate policies and controls commensurate with the level of
                  importance that science plays in Interior.

                  An Interior-wide comprehensive scientific integrity policy is long
                  overdue and should not be relegated to the bureaus. We found that
                  the policy created by USGS supplemented by HHS’s processes to
                  track and report misconduct can serve as a model for Interior. We
                  have outlined the components of the USGS and HHS policies in
                  Appendix 4 of this memorandum.


Recommendations   We recommend to the Secretary that Interior:

                  1. Develop and implement an Interior-wide comprehensive
                     scientific integrity policy that addresses required elements of
                     the OSTP scientific misconduct policy, to include provisions
                     for both internal and external scientific research, applicable to
                     all agents, appointees, employees and contractors involved in
                     researching and publishing scientific results of any kind,
                     include a misconduct allegation reporting requirement, and a
                     range of disciplinary actions.
                  2. Designate a responsible official to guide the development and
                     implementation of an Interior-wide scientific integrity policy
                     and to oversee the bureaus implementation and application of
                     the policy.




                                                                                         8 
 
Appendix 1
Objective, Scope and Methodology
    The objective of our evaluation was to research existing Federal and Interior guidance related
to scientific integrity and to determine whether codes of conduct for scientific research and
publication exist and in what form. The Codes of Conduct for the purposes of our review
includes any measures and or policies that ensures the integrity of scientific research. Our scope
included all documents relating to Interior’s scientific research policy from calendar years 2000
through 2009. In addition, we:

       reviewed all applicable laws, rules and regulations and Interior and bureau policies
        related to scientific research;
       interviewed Interior and bureau officials regarding scientific integrity policy;
       reviewed bureaus’ scientific budget justifications for fiscal years 2008 and 2009; and

       reviewed the OMB guidance from 2001 and 2004 regarding Information Quality and Peer
        reviews and OSTP policy from 2000 regarding scientific research misconduct.

   Our review did not include determining the extent or effectiveness of the Information Quality
Guide, Peer Review processes, or scientific integrity policies from other agencies.




                                                                                                 9 
 
Appendix 2
Governmentwide Scientific Integrity Requirements
        The Federal government has long advocated the highest level of integrity in all aspects of
the executive branch's involvement with scientific processes. We found three Federally-issued
directives that serve to ensure scientific integrity. Two directives issued by the Office of
Management and Budget (OMB) on information quality (issued in 2001) and peer review (issued
in 2004), which serve to ensure that Federally funded information released to the public is
accurate and reliable. All Interior bureaus implemented the OMB directives. The third directive
was issued by the White House’s Office of Science and Technology Policy (OSTP) in 2000,
which required all executive office agencies to implement scientific integrity policies that would
address research misconduct. For more than three decades OSTP has directed agencies in
developing and implementing sound science and technology policies.

   OSTP requires a research misconduct policy for each Federal agency. The research
misconduct policy should include the following:

       A definition of research misconduct and the elements of a research misconduct finding;

       Instructions for handling research misconduct allegations and adjudication, including
        standards for objectivity and timeliness;
       Safeguards for informants and subjects of allegations; and
       Possible administrative actions for research misconduct findings.

    In March 2009, President Obama issued a memorandum that required each agency to have
appropriate scientific integrity rules and procedures and that when scientific or technological
information is considered in policy decisions it must be subject to well established scientific
processes. The memorandum went on to state that agencies are required to have procedures to
identify and address instances when information may be compromised.




                                                                                                  10 
 
Appendix 3
Scientific Research Misconduct Policy Comparison

                                                                                                   DOI   BI   BLM     BOR         FWS   MM   NPS   OSM   USGS
                                                                                                         A          (Temporar            S               (Issued
                                                                                                                     y Release                           1/2007)
                                                                                                                     1-11-2010)


                                                            Misconduct Defined                                                                    
                                                            Requirements for Findings of
                                                            Research Misconduct
    White House’s Office of Science and Technology Policy




                                                            (significant departure from accepted
            Policy on Research Misconduct Requirements




                                                            practices of relevant research
                                                            community; intentional, knowing,
                                                                                                                                                  
                                                            reckless; and, proven by
                                                            preponderance of evidence)
                                                            Responsibilities of Federal
                                                            Agencies and Research
                                                            Institutions
                                                            *Referral of Allegations
                                                            *Response to Allegations
                                                            *Inquiry
                                                            *Investigation                                                                        
                                                            *Adjudication
                                                            * Agency follow-up to Institutional
                                                              Action
                                                            *Institutional Notification of the
                                                              Agency
                                                            Guidelines for Fair and Timely
                                                            Procedures:
                                                            *Safeguards for Informants
                                                            *Safeguards for Subjects of
                                                            Allegations                                                                           
                                                            *Objectivity and Expertise
                                                            *Timeliness
                                                            *Confidentiality
                                                            Agency Administrative Actions
                                                            *Seriousness of the Misconduct
                                                            *Possible Administrative Actions
                                                                                                                                                  
                                                            Scientific Code of Conduct
                                                            Statements                                                                            
                                           - indicates lack of policy
                                         - indicates policy in place




                                                                                                                                                             11 
 
Appendix 4
A Model Policy Based on USGS and HHS Policies

                Integrated Comprehensive Scientific Integrity Policy
                                                                      USGS   HHS
    Scientific Research Conduct Guidelines
        ‐ Provides guidance to employees who engage in scientific           
            activities to promote scientific integrity
    Review Panel
        ‐ Responsible for conducting an investigation
        ‐ Appointed and must not have a conflict of interest with           
            the investigation
    Policy to Handle Allegations of Misconduct
        ‐ Criteria necessary to establish research misconduct
        ‐ Initial inquiry to determine if an investigation is
            warranted
        ‐ Investigation, if warranted, to determine if research             
            misconduct has occurred
        ‐ Handled in a manner to protect the rights of all involved
            as much as possible
        ‐ Completed in a timely manner
    Disciplinary Actions
        ‐ Includes all employees and contractors                            
        ‐ Includes possible disciplinary actions
    Record Keeping
        ‐ Number of allegations of scientific misconduct
        ‐ Whether scientific misconduct was found                           
        ‐ Disciplinary actions taken
    Public Viewing
        ‐ Incidents of research misconduct are available for public         
            viewing via agency website
    Education
        ‐ Provides regular training on research misconduct
        ‐ Distributes newsletters on a regular basis regarding              
            research misconduct
    Allegation Reporting Process                                            
 - indicates lack of policy
 - indicates policy in place
                                                                                   12 
 
                                       


             Report Fraud, Waste, Abuse,  
                and Mismanagement
                                         
                  Fraud, waste, and abuse in government
                  concern everyone: Office
                                              of Inspector
                  General staff, Departmental employees,
                    and the general public. We actively
                  solicit allegations of any inefficient and
                    wastef ul practices, fraud, and abuse
                  related to Departmental or Insular Area
                 programs and operations. You can report
                      allegations to us in several ways.  
                                       
                                       
                                           
                                       
                                       
        By Mail:           U.S. Department of the Interior  
                           Office of Inspector General  
                           Mail Stop 4428 MIB  
                           1849 C Street, NW  
                           Washington, D.C. 20240  
          
        By Phone :         24‐Hour Toll Free               800‐ 424‐5081  
                           Washington Metro Area           703‐ 487‐5435  
          
        By Fax:            703‐487‐5402
          
        By Internet:       www. doioig.gov/hotline
     




 
